                       Department of the Interior
                       Office of Inspector General



             AUDIT REPORT



               U.S. Fish and Wildlife Service
            Wildlife and Sport Fish Restoration
             Program Grants Awarded to the
                      State of Oregon,
             Department of Fish and Wildlife,
                            From
            July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0010-2008           February 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191
                                                                                February 26, 2009
                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Oregon, Department of Fish and Wildlife, From
           July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0010-2008)

        This report presents the results of our audit of costs incurred by the State of Oregon
(State), Department of Fish and Wildlife (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport
Fish Restoration Program (the Program). The audit included claims totaling approximately
$49.3 million on 153 grants that were open during State fiscal years (SFYs) ended June 30 of
2006 and 2007 (see Appendix 1). The audit also covered Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $61,859 and found that the
Department did not report all program income, incorrectly charged labor to grants based on
budgeted percentages of time spent on grant-related activities rather than actual time, did not
maintain adequate land management records, and did not restrict access to computer networks
for employees who left the Department.

        We provided a draft report to FWS for a response. We summarized Department and
FWS Region 1 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

      Please respond in writing to the findings and recommendations included in this report by
May 27, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Tim Horsma, or me at 703–487–5351.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $49.3 million on the 153 grants that were
open during SFYs 2006 and 2007 ended June 30 (see Appendix 1). We report only on those
conditions that existed during this audit period. We performed our audit at Department
headquarters’ offices in Salem, OR, and visited one regional office, one district office, three
wildlife areas, one wildlife research site, two fisheries facilities, and two motorboat access sites
(see Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendments of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On September 2, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the State of Oregon, Department of Fish and
Wildlife, from July 1, 2001, through June 30, 2003” (No. R-GR-FWS-0012-2004). We followed
up on all recommendations in the report and found that four (C, D, E.1, and E.2) have not been
fully implemented. The resolved but unimplemented findings relate to an inappropriate
drawdown made to reimburse the Department for an advance payment made to another State
agency (C), failure to follow rules on disposition of personal property (D), problems with a point
of sale system (E.1), and inadequate computer system access controls (E.2). We repeat
recommendation E.2 from our prior report in Finding E of this report. Our current audit did not
identify issues related to the other unimplemented findings.



                                                3
On August 4, 1999, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal Aid
Grants to the State of Oregon, Department of Fish and Wildlife, for the Fiscal Years ended
June 30, 1995 and 1996” (No. 99-E-727) which conveyed Defense Contract Audit Agency Audit
(DCAA) Report No. 4261-97X17900006. This audit disclosed that Departmental employees
incorrectly charged grants based on pre-determined budgetary data instead of the actual activities
on which they worked. Our current audit disclosed the same issue, which we discuss in Finding
C in the Results of Audit Section below.

We reviewed Oregon Secretary of State, Audits Division, single audit reports for SFYs 2006 and
2007 and determined that the Department’s Wildlife and Sport Fish Restoration Program was not
selected for specific review. In addition, no findings related to the Department’s administration
of the program.




                                                4
                                    Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $61,859.
We discuss the findings in more detail in the Findings and Recommendations section.

       Questioned Costs. The Department overstated grant costs by $61,859 for indirect costs
       related to parking permit expenditures on Grants W-22-D-60 and W-22-D-61.

       Unreported Program Income. The Department earned but did not report $23,210 in
       program income under Grants W-22-D-60 and W-22-D-61.

       Labor Charged to Grants Based on Budget Percentages. The Department incorrectly
       charged labor costs to grants based on budgeted percentages rather than actual hours
       worked on grant-supported activities.

       Inadequate Land Records. The Department did not maintain accurate and complete
       land records and did not reconcile information in its land records with information in
       records maintained by FWS.

       Inappropriate Access to Computer Networks. The Department did not terminate user
       access privileges to computer networks when the staff left employment with the
       Department.

Findings and Recommendations
A.     Questioned Costs - $61,859

       The Department overstated total costs on operation and maintenance grants for the Sauvie
       Island Wildlife Area by $82,479 ($40,984 for W-22-D-60 and $41,495 for W-22-D-61).
       The grants required 25 percent of expenditures to be paid for with non-federal funds, so
       the federal share of this amount is $61,859 (75 percent of $82,479). Indirect expenses are
       those costs that cannot be allocated solely to one grant or program objective. These
       overstated costs were indirect expenses for the administration of parking permits that
       were not all related to wildlife activities.

       The Code of Federal Regulations (50 C.F.R. §§ 80.15 and 80.16) state that payments
       shall be made for the federal share of allowable costs incurred by the State in
       accomplishing approved projects; and Section 80.15 defines allowable costs as those
       costs necessary to accomplish project purposes.

                                                 5
           Area parking permit revenue is generated when members of the public park near State-
           run facilities or other areas to engage in both wildlife (e.g., hunting) and non-wildlife
           (e.g., recreation at beach areas) activities. Therefore, the administrative costs related to
           parking permits were for both wildlife and non-wildlife activities. According to a
           Department official, there is no practical way to distinguish between the parking revenue
           and associated administrative expenses that are related to wildlife or non-wildlife activity.

           The overstated costs claimed occurred as a result of the method the Department used to
           record grant-related costs and process its grant financial status reports (SF-269s). To
           process its claim, the Department (1) recorded direct costs, including expenditures related
           to issuing and administering parking permits; (2) applied a negotiated indirect cost rate to
           the direct costs; and (3) reduced total costs claimed by an amount equal to estimated
           parking permit costs 2. In effect, this method removed direct expenditures related to
           issuing parking permits but incorrectly retained the associated indirect costs.

           As a result of the Department’s overstatement of total grant costs, the Department
           obtained excess reimbursement of at least $61,859 (federal share).

           Recommendations

           We recommend that FWS:

           1. resolve the questioned costs of $61,859, and

           2. require the Department to implement procedures to ensure that only grant-related
              costs are included in amounts claimed.

           Department Response

           The Department concurred with the recommendations and stated that they will work with
           FWS to resolve the questioned costs and submit revised SF-269s by June 30, 2009.
           Procedures will be implemented to ensure that only grant-related costs are included in
           amounts claimed. A new template will be utilized for calculating the reimbursement
           claimed.

           FWS Response

           FWS Regional officials concurred with the recommendations and stated that they would
           work with the Department in developing a corrective action plan to resolve the
           recommendations.




2
    The method used assumes parking permit costs related to non-wildlife activity equals parking permit revenue.
                                                           6
     OIG Comments

     While FWS regional management concurred with the recommendations, additional
     information is needed in the corrective action plan including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   targeted completion dates;

            •   titles of officials responsible for the specific actions taken or planned; and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

B.   Unreported Program Income

     Grants W-22-D-60 and W-22-D-61 provided funds for the operation and maintenance of
     the Sauvie Island Wildlife Area. The Department generated revenue from rents charged
     to employees for Department-owned housing that was maintained with the grant funds.
     Federal regulations and FWS guidelines permit the Department to earn such “program
     income” from activities paid for by the grant, but they must account for it appropriately.
     The Department earned but did not report program income of $23,210 on Grants W-22-
     D-60 ($11,605) and W-22-D-61($11,605).

     Federal regulations (43 C.F.R. § 12.65(b)) define program income as gross income a
     grantee receives that is “directly generated by a grant-supported activity, or earned only
     as a result of the grant agreement during the grant period.” The FWS Manual (522 FW
     19.4, Exhibit 1(1)) requires grantees to report income they receive from contractor-
     provided services that support grant objectives on lands purchased or managed with grant
     funds. With FWS approval, grantees can utilize program income in addition to grant
     funds for grant-related purposes ((43 C.F.R. § 12.65(g)(2)). Regulations (43 C.F.R. §
     12.60(a)(2) and 50 C.F.R. § 80.15(a)) also require each State to (1) be able to track,
     through its financial management system, funds at a level that is adequate to demonstrate
     compliance with grant provisions; and (2) support all costs with source documents or
     other records.

     According to Department officials, the underreported program income was an oversight.
     Because of the Department’s underreporting of program income, the Department did not
     accurately report the full cost of grant-related activity.




                                              7
     Recommendations

     We recommend that FWS:

     1. ensure the unreported program income of $23,210 on grants W-22-D-60 and W-22-
        D-61 is appropriately accounted for and the SF-269s are revised to include this
        program income, and

     2. require the Department to revise its grant accounting procedures to ensure that
        program income is properly reported and its claims are supported.

     Department Response

     The Department concurred with the recommendations and stated that they would work
     with FWS in developing a corrective action plan to resolve the recommendations. The
     Department stated that it will work with FWS to ensure the underreported of $23,210 on
     grants W-22-D-60 and W-22-D-61 is appropriately accounted for and the SF-269s are
     revised to include this program income. The Department will document grant accounting
     procedures to ensure that program income is properly reported and its claims are
     supported.

     FWS Response

     FWS Regional officials concurred with the recommendations and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     While FWS regional management concurred with the recommendations, additional
     information is needed in the corrective action plan including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   targeted completion dates;

            •   titles of officials responsible for the specific actions taken or planned; and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

C.   Labor Charged to Grants Based on Budget Percentages

     The Department charged labor costs to Program grants for staff time spent on grant-
     supported activities based on budget percentages. The Department should have charged
     these labor costs based on actual time spent on each activity. However, for certain
                                              8
personnel who worked on more than one grant, it based the charges to the grant on
budgeted percentages of time rather than actual hours worked.

We reviewed 441 employees charging labor to grants for the period of June 30, 2005 to
July 1, 2007 and found that at least 34 were charging grants based on a budgeted
percentage. In addition, the Department charged certain grants an inequitable share of
holiday and vacation hours. The practice of charging labor to grants based on budget
percentages was also reported in a prior 1999 audit by the DCAA (see the Prior Audit
Coverage section for additional information).

Under 2 C.F.R. § 225, Attachment A, Section E(2)(a), grantees may charge Federal
grants for employee compensation for time devoted specifically to the performance of
those grants. However, the regulations (2 C.F.R. § 225, Appendix B, Section 8(h))
require grantees to use documented payroll costs to base charges to Federal awards for
salaries. Where employees work on multiple activities, the grantees should use personnel
activity reports to support the distribution of charges for their salaries (Section 8(h)(4)).
The reports must reflect the after-the-fact distribution of the actual activity of each
employee (Section 8(h)(5)(a)). The regulations specifically prohibit budget estimates
made before the services are performed from being used to support charges to federal
awards (Section 8(h)(5)(e)).

Based on our review, employees working on multiple grants were either instructed by
managers to complete their time activity reports using budgeted percentages rather than
actual hours worked, or they were provided insufficient guidance on proper grant labor
charging procedures.

The use of budgeted (estimated) percentages and inequitable charging of holiday and
vacation time may have resulted in an incorrect distribution of personnel charges, and
associated indirect costs, to the grants. As mentioned in Finding A, indirect costs are
those costs, such as administrative time and expenses, which cannot be directly charged
to an activity. The Department bases its calculation of indirect costs to allocate to a grant
on the direct costs charged, so if it overcharged grants for direct costs, it would likely
have overcharged them for indirect costs. The grant financial status reports (SF-269s),
which contain a summary of the revenues and expenditures for the grants, could be
inaccurate.

Recommendations

We recommend that FWS require the Department to:

1. review grant labor charges for SFYs 2006 and 2007, including the 34 employees
   identified above, to identify each instance of labor charges that were made based on
   budgeted rather than actual costs, and either provide support for labor costs claimed
   or revise the grant SF-269s accordingly; and



                                          9
     2. implement policies and procedures to ensure that all labor costs charged to Program
        grants are based on employee activity reports that document the actual hours worked
        and to ensure that grants are charged an equitable share of leave allocations.

     Department Response

     The Department concurred with the recommendations and stated that they would work
     with FWS in developing a corrective action plan to resolve the recommendations. The
     Department will review grant labor charges for SFYs 2006 and 2007. Charges for the 34
     referenced employees will be reviewed and certified by management. Additional training
     to staff will be provided regarding charging their time equitably. Also, semi-annual
     review will be performed of charges for hours worked and leave allocations to identify
     employee charges that require staff training.

     FWS Response
     FWS Regional officials concurred with the recommendations and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     While FWS regional management concurred with the recommendations, additional
     information is needed in the corrective action plan including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   targeted completion dates;

            •   titles of officials responsible for the specific actions taken or planned; and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

D.   Inadequate Land Management Records

     Federal regulations require each State to have adequate controls—including current and
     complete property records—to ensure it maintains accountability for its land (50 C.F.R. §
     80.19). The Department is also responsible for assuring all assets serve the purpose for
     which acquired (50 C.F.R. § 80.18(c)). In addition, FWS reiterated these land records
     management requirements to Program participants in a March 29, 2007 letter. The letter
     also requested that States assess whether field managers and realty staff had specific
     knowledge and a monitoring system to ensure lands purchased with federal funds were
     used for originally intended purposes. Despite the requirements and reinforcement from
     FWS on the requirements, the Department did not maintain accurate and complete land
     records and did not reconcile its land records with those maintained by FWS.
                                              10
.   To determine whether the Department had adequate controls over land purchased with
    Program grants, we compared a sample of land records contained in a database
    maintained by FWS to those maintained by the Department. We also reviewed
    supporting documentation maintained by the Department. Based on our review, we
    found that for certain parcels, the acquisition funding source had not been properly
    identified and there were discrepancies between acreages recorded in Department records
    and those recorded in FWS records. For example, three parcels on the Elkhorn Wildlife
    Area, which had been purchased in part with Program grant funds, had been incorrectly
    identified in the Department’s records as purchased only with State funds. The recorded
    acreage for these parcels in Department records also differed from the acreage listed in
    FWS records.

    Without accurate records the Department cannot ensure accountability and control of
    land purchased with Program funds.

    The Department’s land records were inaccurate and incomplete because the Department
    had not committed sufficient resources to management of land records. Field managers
    also did not have an effective mechanism to identify land under their supervision and
    could not implement a monitoring process to ensure compliance with Program
    requirements. According to officials, there are opportunities for the Department to
    improve its official land records management system. Officials added that the
    Department’s realty section maintains a land record support database that will be used to
    reconcile information in its records with those maintained by FWS.

    Recommendations

    We recommend that FWS require the Department to:

    1.   update its official land records,

    2.   reconcile its lands records with FWS records, and

    3.   develop and implement procedures to ensure supervisors are aware of lands under
         their supervision and that a monitoring process is established to inspect lands
         regularly for compliance with Program requirements.

    Department Response

    The Department concurred with the recommendations and stated that they would work
    with the FWS in developing a corrective action plan to resolve the recommendations.
    The Fiscal Services section will work with the Realty Section to update official land
    records and reconcile land records with FWS records. The Department is embarking on a
    project to replace its existing asset tracking system. When the system is implemented,
    land records will be prioritized for input in the new system. When requirements are
    define for this system, it will include a report to support a monitoring process to inspect
    lands. When procedures are developed for implementation of the new system, they will
                                             11
     include a procedure for supervisors to inspect land regularly for compliance with
     Program requirements. The Department will communicate completion dates for these
     recommendations after the asset system project timeline is complete.

     FWS Response

     FWS Regional officials concurred with the recommendations and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     While FWS regional management concurred with the recommendations, additional
     information is needed in the corrective action plan including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   titles of officials responsible for the specific actions taken or planned; and

            •   targeted completion dates;

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

E.   Inappropriate Access to Computer Networks

     The Department restricts access to information contained on its networks by providing
     identifications (IDs) and passwords to employees who need access to the information.
     When an employee retires or resigns from the Department, or changes job
     responsibilities, the Department should terminate their access privileges to maintain the
     security of the information. The Department has a policy in place for terminating user
     access privileges when employees leave employment with the Department, but it fails to
     follow this policy. During our review, we identified 80 former Department employees
     who still had active network level IDs for the Department’s general support system
     (network) as of June 2008.

     Industry standards and Department policy dictate that an employee’s access privileges be
     removed in a timely manner when these privileges are no longer required to perform day-
     to-day job functions.

     We identified this issue in our prior audit report (No. R-GR-FWS-0012-2004). In the
     Department’s response to the prior audit recommendation (E.2), Department officials
     stated that they would generate an employee termination list from the State personnel
     system on a monthly basis and provide it to the Information Systems Division (Division).
     The Division could use this information to verify the termination of access for departing
     Department employees. In addition, the Division was to be notified by supervisors when
                                              12
Department staff departed. According to Division staff, they are not notified of
terminations on a consistent basis and were not authorized to cancel system access
without such notification.

While the Department’s procedure should work to revoke access as required, they did not
follow it. As a result, the Department’s procedures did not provide reasonable assurance
that computer resources such as data files and applications were protected against
unauthorized modification, disclosure, and loss.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0012-2004,
Recommendation E.2) and recommended that the Division establish an accurate
inventory database. Therefore, we are repeating the applicable recommendation from
that report. This recommendation will be tracked under the resolution process for the
prior audit report.

Repeat Recommendation

We recommend that FWS require the Department to revise procedures to ensure prompt
notification and removal of system access when an employee resigns or when an
employee’s duties no longer require access to the Department’s system
(Recommendation E.2 in Report No. R-GR-FWS-0012-2004).

New Recommendation

We recommend that FWS require the Department to demonstrate that it has enforced the
procedures in place or created to ensure prompt notification and removal of system
access when an employee resigns or when an employee’s duties no longer require access
to the Department’s system.

Department Response

The Department concurred with the recommendations and stated that they would work
with the FWS in developing a corrective action plan to resolve the recommendations. In
addition, the Department would revise procedures to ensure prompt notification and
removal of system access when an employee resigns or when an employee’s duties no
longer require access to the Department’s system and then demonstrate the
implementation of this process by June 30, 2009.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they would
work with the Department in developing a corrective action plan to resolve the
recommendations.




                                       13
OIG Comments

While FWS regional management concurred with the recommendations, additional
information is needed in the corrective action plan including:

      •   the specific action(s) taken or planned to address the recommendations;

      •   targeted completion dates;

      •   titles of officials responsible for the specific actions taken or planned; and

      •   verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Department.




                                        14
                                                             Appendix 1
                                                                  Page 1 of 5

          OREGON DEPARTMENT OF FISH AND WILDLIFE
          FINANCIAL SUMMARY OF REVIEW COVERAGE
             JULY 1, 2005, THROUGH JUNE 30, 2007
                                               Questioned Costs
               Grant                            (Federal Share)
 Number       Amount     Claimed Costs   Cost Exceptions      Total
F-92-L-5            $0             $0
F-97-R-32      138,525        123,700
F-97-R-33      152,934        140,439
F-97-R-34      163,070        161,285
F-104-R-26     160,330        145,315
F-104-R-27     226,586        178,903
F-104-R-28     192,189        187,672
F-108-R-26     200,976        158,742
F-108-R-27     217,974        155,759
F-108-R-28     437,889        364,978
F-111-D-216    175,000        175,000
F-111-D-220    200,000         76,475
F-111-D-225     66,000         97,217
F-111-D-229     83,399         84,877
F-111-D-230    166,210        166,034
F-111-D-233     60,000              0
F-111-D-235    201,800        221,142
F-111-D-236    801,500      1,326,280
F-111-D-237     30,000         28,059
F-111-D-238    664,089        283,640
F-111-D-239    262,500        264,530
F-111-D-240     77,000         77,629
F-111-D-242    119,808        119,808
F-111-D-244    165,000              0
F-111-D-245    261,356        259,538
F-111-D-246    280,000        254,061
F-111-D-248    273,250        540,754
F-111-D-249    774,650        276,767
F-111-D-250     96,000         53,587
F-111-D-251     90,000        121,200
F-111-D-252     53,350         52,463
F-111-D-253    199,940         63,294
F-111-D-254     18,000         18,000
F-111-D-255    675,000              0

                               15
                                                              Appendix 1
                                                                  Page 2 of 5

         OREGON DEPARTMENT OF FISH AND WILDLIFE
         FINANCIAL SUMMARY OF REVIEW COVERAGE
            JULY 1, 2005, THROUGH JUNE 30, 2007
                                                Questioned Costs
                Grant                           (Federal Share)
 Number       Amount      Claimed Costs   Cost Exceptions      Total
F-115-R-24      502,902        498,149
F-115-R-25      246,948        248,948
F-115-R-26      263,590        263,487
F-119-R-21      349,011        285,567
F-119-R-22      751,758        711,283
F-119-R-23      810,081        783,806
F-121-D-20    1,161,463      1,006,858
F-121-D-21    1,189,309      1,131,261
F-121-D-22    1,276,928      1,233,450
F-128-R-19      481,784        488,752
F-128-R-20      526,593        526,583
F-128-R-21      577,823        577,823
F-136-R-18      267,390        287,390
F-136-R-19      310,769        282,213
F-136-R-20      432,583        432,583
F-138-AE-18     390,083        372,680
F-138-AE-19     416,381        441,592
F-138-AE-20     451,056        537,650
F-144-R-16      163,839        161,703
F-144-R-17      189,104        182,514
F-144-R-18      211,365        211,385
F-157-R-12      120,593        110,809
F-157-R-13      144,718        122,001
F-157-R-14      153,993        137,137
F-160-R-11       72,306         72,308
F-160-R-12       75,964         75,356
F-163-R-10      471,412        464,304
F-163-R-11      491,039        485,654
F-163-R-12      615,575        609,195
F-165-D-5       114,467        114,468
F-165-D-6       126,581        126,581
F-165-D-7       133,482        133,164



                                16
                                                                 Appendix 1
                                                                     Page 3 of 5

             OREGON DEPARTMENT OF FISH AND WILDLIFE
             FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 2005, THROUGH JUNE 30, 2007
                                                   Questioned Costs
                   Grant                           (Federal Share)
 Number          Amount      Claimed Costs   Cost Exceptions      Total
F-166-D-8        2,136,503      2,122,347
F-166-D-9        2,345,940      2,314,436
F-166-D-10       2,613,521      2,578,221
F-168-R-8           58,552         56,922
F-168-R-9           74,730         74,436
F-168-R-10          86,768         84,980
F-171-R-7          889,863        882,651
F-171-R-8        1,181,710      1,173,643
F-171-R-9        1,069,597      1,051,549
F-177-D-6            9,162          6,824
F-177-D-7           24,490         22,340
F-177-D-8           25,744         25,328
F-178-R-6          160,903        157,153
F-178-R-7          155,224        149,986
F-178-R-8          164,989        121,382
F-181-D-5          133,114        117,243
F-181-D-6          140,957        127,673
F-181-D-7          131,242        118,436
F-182-C-3          136,000         68,758
F-183-D-4           39,087         39,087
F-183-D-5           41,372         32,238
F-183-D-6           41,372              0
F-183-D-7           42,647         27,203
F-184-T-3          118,621        116,712
F-184-T-4          132,147        124,384
F-184-T-5          143,555        235,716
F-185-P-2          104,644         97,790
F-185-P-3          115,119        112,409
F-185-P-4          130,381        122,118
F-186-R-2          184,418        185,460
F-186-R-3          200,798        200,471
F-186-R-4          220,134        224,900



                                   17
                                                             Appendix 1
                                                                 Page 4 of 5

         OREGON DEPARTMENT OF FISH AND WILDLIFE
         FINANCIAL SUMMARY OF REVIEW COVERAGE
            JULY 1, 2005, THROUGH JUNE 30, 2007
                                               Questioned Costs
               Grant                           (Federal Share)
 Number      Amount      Claimed Costs   Cost Exceptions      Total
F-187-C-2       27,912         21,364
F-187-C-3        4,555          4,386
F-187-C-4        4,696            668
F-188-D-1       34,883         34,883
F-188-D-2       41,998         41,998
F-188-D-3       44,124         44,124
F-189-L-1      204,853        492,353
F-190-L-1       94,000         98,651
F-191-R-1      128,654         54,092
FW-18-D-29     232,901        232,558
FW-18-D-30     237,717        215,217
FW-20-T-21     291,368        288,011
FW-20-T-22     328,024        266,293
FW-20-T-23     375,328        357,639
FW-21-D-20      49,584         39,959
FW-21-D-21      42,489         37,255
W-9-D-64       330,128        330,128
W-9-D-65       427,671        404,572
W-22-D-60      658,287        543,802         $30,738      $30,738
W-22-D-61      742,223        724,543         $31,121      $31,121
W-32-D-25      284,072        278,476
W-32-D-26      283,721        278,784
W-38-D-53    1,495,711      1,472,984
W-38-D-54    1,555,821      1,525,274
W-45-D-54      470,875        465,834
W-45-D-55      561,240        581,240
W-46-D-51      133,223        129,473
W-46-D-52      155,023        154,165
W-47-D-52      465,461        341,193
W-47-D-53      436,113        438,045
W-48-D-52      216,830        211,641
W-48-D-53      236,962        236,962
W-55-D-46      219,368        219,388
W-55-D-47      265,387        239,120

                               18
                                                               Appendix 1
                                                                   Page 5 of 5

         OREGON DEPARTMENT OF FISH AND WILDLIFE
         FINANCIAL SUMMARY OF REVIEW COVERAGE
            JULY 1, 2005, THROUGH JUNE 30, 2007
                                                 Questioned Costs
                 Grant                           (Federal Share)
 Number       Amount       Claimed Costs   Cost Exceptions      Total
W-71-HS-35       622,176        651,049
W-71-HS-36       579,348        651,313
W-72-D-29        470,554        437,882
W-72-D-30        478,465        478,465
W-87-R-22        152,932        152,003
W-87-R-23        171,560        155,007
W-88-HS-13       185,204        183,497
W-88-HS-14       138,903        134,000
W-88-HS-15       185,204        126,737
W-90-R-12         99,562         89,016
W-96-C-6         217,324        186,341
W-96-C-7         277,470        269,061
W-97-R-6         136,148        126,960
W-97-R-7         136,148        133,834
W-98-R-5         545,097        542,584
W-98-R-6         481,028        481,026
W-101-R-1        224,544        168,972
W-101-R-2        251,750        229,935
W-102-R-1        474,408        472,049
W-102-R-2        662,631        650,988
Totals       $51,884,675    $49,276,890         $61,859      $61,859




                                 19
                                                                    Appendix 2

            OREGON DEPARTMENT OF FISH AND WILDLIFE
                        SITES VISITED

                               Headquarters
                                  Salem


                        North East Regional Office
                               La Grande


                              District Offices
                                 Pendleton


Wildlife Areas, Wildlife Research, Fisheries Facilities, and Motorboat Access
                             Elkhorn Wildlife Area
                             John Day Screen Shop
                           La Grande Fish Research
                          Ladd Marsh Wildlife Area
                      Phillip W. Schneider Wildlife Area
                           Pilcher Creek Boat Ramp
                           Starkey Wildlife Research
                         Wolf Creek Ram Boat Ramp




                                     20
                                                                            APPENDIX 3


                                   OREGON
                        DEPARTMENT OF FISH AND GAME
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

    Recommendations                     Status                     Action Required
A.1, A.2, B.1, B.2, C.1,   FWS management concurs          Additional information is
C.2, D.1, D.2,D.3, and     with the recommendations, but   needed in the corrective action
E (New)                    additional information is       plan, including the actions taken
                           needed as outlined in the       or planned to implement the
                           “Actions Required” column.      recommendations, targeted
                                                           completion date(s) and
                                                           verification that FWS officials
                                                           reviewed and approved of
                                                           actions taken or planned by the
                                                           State. We will refer
                                                           recommendations not resolved
                                                           and/or implemented at the end
                                                           of 90 days (after May 27, 2009)
                                                           to the Assistant Secretary for
                                                           Policy, Management and Budget
                                                           for resolution and/or tracking of
                                                           implementation.

E (Repeat)                 Repeat Recommendation E.2       Provide documentation
                           from our prior report (G-GR-    regarding the resolution and
                           FWS-0012-2004). PMB             implementation of this
                           considers this                  recommendation to PMB.
                           recommendation resolved but
                           unimplemented.




                                       21
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
